  U.S. ENVIRONMENTAL PROTECTION AGENCY
  OFFICE OF INSPECTOR GENERAL



                                 Catalyst for Improving the Environment




EPA Progress on the 2007
Methamphetamine Remediation
Research Act
Report No. 11-P-0708

September 27, 2011
Report Contributors:                               Carolyn Copper
                                                   Steve Hanna
                                                   Roopa Batni
                                                   Tapati Bhattacharyya
                                                   Kate Kimmel
                                                   Brooke Shull




Abbreviations

DEA           Drug Enforcement Administration
EPA           U.S. Environmental Protection Agency
HHW           Household Hazardous Waste
NIST          National Institute of Standards and Technology
OEM           Office of Emergency Management
OIG           Office of Inspector General
ORD           Office of Research and Development
OSWER         Office of Solid Waste and Emergency Response


Cover photo: Members of the New Jersey Department of Emergency Management responding
             to a clandestine drug lab. (Photo courtesy Association of State and Territorial
             Solid Waste Management Officials)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                             11-P-0708
                                                                                                   September 27, 2011
                        Office of Inspector General


                        At a Glance
                                                                            Catalyst for Improving the Environment

Why We Did This Review              EPA Progress on the 2007 Methamphetamine
We conducted this review to         Remediation Research Act
determine the effectiveness of
the U.S. Environmental              What We Found
Protection Agency’s (EPA’s)
methamphetamine laboratory,         EPA has met some, but not all, of its requirements under the Meth Act. While
or meth lab, cleanup guidelines,    EPA did publish an initial set of guidelines, Voluntary Guidelines for
and the status of EPA’s             Methamphetamine Laboratory Cleanup, in August 2009, it has not yet developed
required activities under the       plans to periodically update the guidelines as required. EPA developed a draft
2007 Methamphetamine                multiyear research plan, but has delayed its implementation. EPA also has no
Remediation Research Act            plans to convene the technology transfer conference within the required
(Meth Act).                         timeframe. Finally, although EPA satisfied the requirement to conduct a study of
Background                          residual effects by performing a literature review of the health impacts of
                                    chemicals remaining in meth labs, it did not transmit the required report to
Thousands of clandestine meth       Congress.
labs are discovered in the
United States each year in          According to EPA staff, EPA has not been able to fully implement the Meth Act
houses, hotels, apartments, and     requirements because EPA’s authorized Meth Act funding of $3.5 million was
vehicles. Chronic exposure to       never appropriated. As a result, EPA’s work to meet the Meth Act’s requirements
residual meth lab chemicals can     has been funded by resources redirected from other programs. From 2008
cause cancer; damage to the         through January 2011, EPA’s estimated total expenditures to address the Meth
brain, liver, and kidneys; and      Act requirements, including personnel and contract costs, were more than
reproductive problems. The          $1.1 million.
Meth Act requires EPA to
develop cleanup guidelines for      EPA has no controls in place to track legislative requirements Agency-wide. EPA
meth labs; develop a research       relies on its program offices to do so, but these program offices also do not have
plan to identify chemicals of       controls in place to track all legislative requirements.
concern and possible exposure,
and evaluate cleanup                What We Recommend
techniques; perform a study of
residual effects of meth lab        We recommend that EPA determine the Agency’s ability to implement the Meth
chemicals; and convene a            Act requirements and communicate its plan to Congress. We also recommend
technology transfer conference      that EPA update several areas of the voluntary guidelines and develop internal
every 3 years.                      controls to ensure legislative requirements are identified, tracked, and met. EPA
                                    agreed with these recommendations. The recommendations are listed as
                                    unresolved because planned completion dates were not provided. In its final
For further information, contact
our Office of Congressional and     response to this report, EPA should describe its specific corrective actions to
Public Affairs at (202) 566-2391.   address the recommendations and provide estimated completion dates for these
The full report is at:
                                    actions.
www.epa.gov/oig/reports/2011/
20110927-11-P-0708.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                             THE INSPECTOR GENERAL




                                       September 27, 2011

MEMORANDUM

SUBJECT:	 EPA Progress on the 2007 Methamphetamine Remediation Research Act
          Report No. 11-P-0708


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           See Below


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated direct labor and travel costs for this report are $195,943.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. The recommendations are listed as unresolved because planned
completion dates were not provided. Your response should include a corrective action plan for
agreed-upon actions, including actual or estimated milestone completion dates. Your response
will be posted on the OIG’s public website, along with our comments on your response. Your
response should be provided in an Adobe PDF file that complies with the accessibility
requirements of Section 508 of the Rehabilitation Act of 1973, as amended. Please e-mail your
response to Carolyn Copper at copper.carolyn@epa.gov. If your response contains data that you
do not want to be released to the public, you should identify the data for redaction. We have no
objections to the further release of this report to the public.
If you or your staff have any questions regarding this report, please contact Wade Najjum at
(202) 566-0827 or najjum.wade@epa.gov, or Carolyn Copper at (202) 566-0829 or
copper.carolyn@epa.gov.


Addressees:
Mathy Stanislaus, Assistant Administrator for Solid Waste and Emergency Response
Paul T. Anastas, Assistant Administrator for Research and Development
Arvin Ganesan, Associate Administrator for Congressional and Intergovernmental Relations
Michael L. Goo, Associate Administrator for Policy
EPA Progress on the 2007 Methamphetamine Remediation                                                                         11-P-0708
Research Act


                                  Table of Contents 


Chapters
   1	   Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Noteworthy Achievements ...........................................................................                4     

                Scope and Methodology .............................................................................                5     


   2	   EPA Has Not Completed All Meth Act Requirements 

        Due to Lack of Funding .....................................................................................               7


                EPA Has Completed Some Requirements of the Meth Act.........................                                       7

                Resource Constraints Limiting EPA’s Efforts to Meet 

                     Meth Act Requirements ....................................................................                   11 

                EPA Has No Controls to Identify and Track Legislative Requirements .......                                        11 

                Conclusions .................................................................................................     12     

                Recommendations .....................................................................................             12     

                Agency Response and OIG Evaluation .......................................................                        13 


   Status of Recommendations and Potential Monetary Benefits..............................                                        14 




Appendices
   A    Agency Response to Draft Report and OIG Comment ...................................                                       15 


   B	   Distribution .........................................................................................................    22 

                                  Chapter 1

                                   Introduction
Purpose
            We conducted this review to determine the effectiveness of the U.S.
            Environmental Protection Agency’s (EPA’s) methamphetamine laboratory, or
            meth lab, cleanup guidelines, and the status of EPA’s required activities under the
            2007 Methamphetamine Remediation Research Act (Meth Act).

Background
            Methamphetamine is a highly addictive, synthetic stimulant that affects the
            central nervous system. It is produced most frequently for use as an illicit
            recreational drug using readily available chemicals and equipment (figure 1).
            Meth labs are found in houses, apartments, hotels, and vehicles. Meth production
            releases numerous chemical byproducts, such as volatile organic compounds,
            acids, bases, and metals, in
            addition to meth itself. These Figure 1: Common meth lab ingredients
            contaminants can remain in
            carpet, walls, floorboards, or
            other structures.
            Additionally, chemicals may
            be improperly disposed by
            dumping or burying on the
            property, or pouring down
            the drain into sewers or
            septic tanks. Each pound of
            meth manufactured results in
            5 to 6 pounds of highly toxic         Department
                                              Department       of Justice
                                                         of Justice photo.photo
            waste.

            EPA has identified 75 chemicals associated with former meth labs. These
            chemicals may require disposal as hazardous waste, and include:

               •	 Cyanides—sodium cyanide and hydrogen cyanide
               •	 Irritants and corrosives—hydrochloric acid, phosphine gas, and sulfuric
                  acid
               •	 Metals/salts—red phosphorus and lead acetate
               •	 Solvents—acetone, benzene, chloroform, ethyl ether, and toluene
               •	 Other potentially hazardous chemicals—ammonia, iodine, hydrogen, LSD,
                  and phenyl-2-propane



11-P-0708                                                                                      1
                Health and Safety Risks

                According to the White House Office of National Drug Control Policy, children
                who live at or visit drug-production sites or are present during drug production
                face a variety of health and safety risks, including inhalation, absorption, or
                ingestion of toxic chemicals, drugs, or contaminated foods that may result in
                nausea, chest pain, eye and tissue irritation, chemical burns, and death. If former
                meth labs have not been decontaminated properly, chronic exposure to residual,
                dangerous, and hidden chemicals can cause serious health problems, such as
                cancer; damage to the brain, liver, and kidneys; birth defects; and reproductive
                problems such as miscarriages.

                Removal and Remediation

                Thousands of meth labs are discovered nationwide each year (figure 2). After a
                meth lab has been seized and processed for evidence, law enforcement is
                responsible for the removal and disposal of the bulk hazardous waste. In most
                states, the Drug Enforcement Administration (DEA) has funded the removal of
                chemicals, drugs, and the apparatus used to manufacture the drugs,1 but DEA

               Figure 2: 2010 Meth lab incidents




1
 This funding came from the DEA Community Oriented Policing Services Program. DEA is no longer funding this
program as of fiscal year 2011.


11-P-0708                                                                                                 2
                   does not remediate residual contamination at these sites. Remediation of residual
                   contamination is the responsibility of the property owner or state or local
                   governments. The property owner and local government agencies must comply
                   with state and federal safety and environmental regulations. State meth lab
                   cleanup requirements vary significantly—some states have no regulations for
                   residual contamination while others have established laws or guidelines.

                   Difficulties with remediation of meth labs are illustrated by examples of residual
                   contamination causing health problems for unsuspecting residents, especially
                   children, living in former meth lab homes. For example, a 2009 New York Times
                   article reported on a family who unknowingly resided in a former Tennessee meth
                   lab.2 The family’s three young children developed breathing problems that
                   required repeated trips to the emergency room, and the parents developed kidney
                   ailments. The family discovered that the house had been a meth lab more than
                   5 years after moving in. The house was contaminated with high levels of meth.
                   After the family moved out of the house, their health problems largely subsided.

                   The Methamphetamine Remediation Research Act of 2007

                   The Methamphetamine Remediation Research Act of 2007 was enacted in
                   December 2007. The Meth Act states the following findings by Congress:

                            (1) Methamphetamine use and production is growing rapidly
                                throughout the United States.
                            (2) Materials and residues remaining from the production of
                                methamphetamine pose novel environmental problems in
                                locations where methamphetamine laboratories have been closed.
                            (3) There has been little standardization of measures for determining
                                when the site of a closed methamphetamine laboratory has been
                                successfully remediated.
                            (4) Initial cleanup actions are generally limited to removal of
                                hazardous substances and contaminated materials that pose an
                                immediate threat to public health or the environment. It is not
                                uncommon for significant levels of contamination to be found
                                throughout residential structures after a methamphetamine
                                laboratory has closed, partially because of a lack of knowledge of
                                how to achieve an effective cleanup.
                            (5) Data on methamphetamine laboratory-related contaminants of
                                concern are very limited, and cleanup standards do not currently
                                exist. In addition, procedures for sampling and analysis of
                                contaminants need to be researched and developed.
                            (6) Many States are struggling with establishing remediation
                                guidelines and programs to address the rapidly expanding
                                number of methamphetamine laboratories being closed each
                                year.

2
    The New York Times, “Illnesses Afflict Homes With a Criminal Past,” July 14, 2009.


11-P-0708                                                                                              3
            The purpose of the Meth Act is “to establish a Federal research program to
            support the development of voluntary guidelines to help states address the
            residual consequences of former methamphetamine laboratories.” The Meth Act
            requires EPA to develop model, voluntary, health-based, cleanup guidelines based
            on the best available scientific knowledge that may be used by states and
            localities to remediate former meth lab sites. The Meth Act addresses the specific
            problem of determining the level of cleanup required to ensure that a former meth
            lab is safe for occupation. States do not have to follow the guidelines, however—
            they are voluntary and not a federal mandate.

            The scope of the problem of meth lab cleanup is illustrated by congressional
            testimony during committee hearings (figure 3).
            Figure 3: Excerpts from congressional testimony on the 2007 Meth Act

             “Right now there are unsuspecting families living in homes that were once illegal meth
             labs. Dangerous and hidden toxic substances in these sites threaten the health of these
             families—with children being the most vulnerable to the devastating, long-term effects
             of exposure.”—Representative Bart Gordon (Tennessee)

             “This is a—unfortunately, a scourge that is all over this country and affects millions of
             people adversely.”—Representative Ken Calvert (California)

             “In my three decades of public service, I don’t think I’ve ever seen a problem as
             pervasive or as damaging as the methamphetamine epidemic that is sweeping our
             country. Meth is a serious threat to public health and safety, not only because of the
             highly addictive nature of the drug itself and its ease of production, but also the toxic
             chemicals used in its manufacture that are contaminating our communities.”—
             Representative Darlene Hooley (Oregon)
            Source: Report 110-8, House of Representatives, 110th Congress 1st session, Methamphetamine
            Remediation Research Act of 2007.

            The Meth Act also requires EPA to develop a research program, submit a report
            to Congress on how the residual effects study will affect the guidelines and the
            research program, convene regular conferences for sharing information and
            submit a report to Congress on feedback obtained during the conferences, and
            periodically update the guidelines. EPA states that the guidelines and the research
            program should meet the Meth Act goal of improving “our national understanding
            of identifying the point at which former methamphetamine laboratories become
            clean enough to inhabit again.”

Noteworthy Achievements
            According to EPA, since 1999, EPA’s Clandestine Methamphetamine Laboratory
            First Responder Awareness and Operations training program has been offered to
            more than 1,200 first responders through 30 courses in 8 EPA regions and 2
            U.S. territories.



11-P-0708                                                                                                 4
            According to EPA, since 2007 the EPA Local Governments Reimbursement
            Program has awarded over $700,000 for expenses related to the release of
            hazardous substances and associated emergency response measures.
            Approximately 25 percent of the total awarded was for the cleanup of former
            meth labs.

Scope and Methodology
            We conducted our work from January to July 2011 in accordance with generally
            accepted government auditing standards. Those standards require that we plan and
            perform the evaluation to obtain sufficient, appropriate evidence to provide a
            reasonable basis for our findings and conclusions based on our objectives. We
            assessed whether EPA followed the requirements set forth in the Meth Act to
            determine the effectiveness of EPA’s meth lab remediation guidelines and
            activities. We assessed EPA’s internal controls for tracking legislative
            requirements, such as reports to Congress. We believe the evidence obtained
            provides a reasonable basis for our findings and conclusions based upon our
            objectives.

            We interviewed staff at EPA headquarters in Washington, DC, from the Office of
            Emergency Management (OEM), the Office of Resource Conservation and
            Recovery, and the Organizational Management and Integrity Staff, all of the
            Office of Solid Waste and Emergency Response (OSWER). We also interviewed
            headquarters staff from the Office of Research and Development (ORD), the
            Office of Congressional and Intergovernmental Relations, and the Office of
            Policy.

            We reviewed a number of documents and considered a number of issues,
            including:

               •	 The 2007 Meth Act and the current status of EPA requirements defined
                  therein
               •	 EPA documents prepared in response to the 2007 Meth Act
               •	 State meth remediation guidelines and programs, as well as the
                  Association of State and Territorial Solid Waste Management Officials
                  research paper and state survey on meth remediation activities
               •	 EPA’s 2008 report to Congress, RCRA Hazardous Waste Identification of
                  Methamphetamine Production Process By-products
               •	 Funding mechanisms available for meth lab remediation activities
               •	 Waste classifications and definitions for the household hazardous waste
                  (HHW) exemption and disposal requirements for meth lab waste
               •	 Health and environmental risks caused by meth labs
               •	 Examples of mechanisms used to track former meth lab properties for
                  public access
               •	 Environmental justice and children’s health issues associated with former
                  meth labs


11-P-0708                                                                                     5
            Prior Evaluation Coverage

            The following Office of Inspector General (OIG) reports addressed issues related
            to the scope of our review:

               •	 DEA OIG, The Drug Enforcement Administration’s Clandestine Drug
                  Laboratory Cleanup Program, Audit Report 10-29, June 2010. This report
                  addressed DEA’s hazardous waste cleanup and disposal activities for meth
                  labs, including an evaluation of DEA’s use of the Assets Forfeiture Fund
                  to pay for clandestine drug laboratory cleanups. The DEA OIG found that
                  the DEA had significant problems in its Clandestine Drug Laboratory
                  Cleanup Program.

               •	 U.S. Department of Justice OIG, Office of Community Oriented Policing
                  Services Methamphetamine Initiative, Audit Report 06-16, March 2006.
                  This OIG evaluated the administration and monitoring of grant programs
                  under the Office of Community Oriented Policing Services
                  Methamphetamine Initiative, which was established to combat meth
                  production, distribution, and use, as well as pay for the proper removal
                  and disposal of hazardous materials at clandestine meth laboratories. This
                  OIG found that management and administrative controls over Meth
                  Initiative grants were not adequate.




11-P-0708                                                                                      6
                                            Chapter 2

   EPA Has Not Completed All Meth Act Requirements 

               Due to Lack of Funding 

                 EPA has met some, but not all, of its requirements under the Meth Act. While
                 EPA did publish an initial set of guidelines, Voluntary Guidelines for
                 Methamphetamine Laboratory Cleanup, in August 2009, it has not yet developed
                 plans to periodically update the guidelines as required. EPA did develop a
                 multiyear research plan, but has delayed its full implementation. EPA convened
                 an initial technology transfer conference, but has no plans to convene the next
                 technology transfer conference within the required timeframe. Finally, although
                 EPA satisfied the study of residual effects by performing a literature review of the
                 health impacts of chemicals remaining in meth labs, it did not transmit the
                 required report to Congress. Although the 2007 Meth Act authorized a total of
                 $3.5 million for EPA in fiscal years 2007 and 2008, this funding was never
                 appropriated by Congress. EPA’s efforts to fund Meth Act initiatives with monies
                 from other EPA programs could not match the amount authorized and needed.
                 Further, EPA lacks internal controls to track compliance with legislative
                 requirements, such as reports to Congress. Consequently, EPA’s remaining Meth
                 Act obligations may not be met or may be delayed, and EPA may not achieve its
                 goal of developing health-based cleanup guidance to reduce public health risks
                 from meth labs that are not sufficiently cleaned up.

EPA Has Completed Some Requirements of the Meth Act
                 The Meth Act identified specific requirements for EPA. Table 1 lists these
                 requirements, with a summary of their current status. A detailed description of
                 each requirement and its status follows.

Table 1: EPA Meth Act requirements
                    Requirement                                                Current status
 Develop voluntary meth lab remediation guidelines.         Complete.
 Periodically update the guidelines.                        Incomplete.
                                                            EPA staff stated they have developed plans to
                                                            update the guidelines.
 Establish a meth lab research program.                     Implementation delayed.
                                                            Draft research plan developed, but full
                                                            implementation delayed.
 Convene a meth lab technology transfer                     Overdue.
 conference every 3 years and submit a report to            First conference was held. EPA staff stated they
 Congress summarizing these conferences.                    have developed plans for the next conference.
 Complete a residual effects study to identify              Complete.
 research needs related to the health impacts of            But no report to Congress.
 chemicals remaining in meth labs, and submit a
 report to Congress on the findings.
Source: OIG analysis of the Meth Act requirements and interviews with EPA staff.




11-P-0708                                                                                                      7
            Voluntary Remediation Guidelines

            The Meth Act requires EPA, not later than 1 year after the date of enactment, to
            develop voluntary guidelines for the remediation of former meth labs. The Meth
            Act requires EPA to develop these guidelines in consultation with the National
            Institute of Standards and Technology (NIST), based on the best currently
            available scientific knowledge. The Meth Act also requires EPA to work with
            state and local governments and other relevant nonfederal agencies and
            organizations to promote and encourage the appropriate adoption of the voluntary
            guidelines.

            EPA has satisfied this legislative requirement. The Voluntary Guidelines for
            Methamphetamine Laboratory Cleanup were published in August 2009. Members
            of state programs and universities contributed to the guidelines, and the guidelines
            were reviewed by other federal agencies, including NIST, as well as state and
            county organizations.

            Periodic Update of the Guidelines

            The Meth Act requires EPA to periodically update the voluntary guidelines in
            consultation with states and other interested parties. Updates to the guidelines
            should incorporate research findings and other new knowledge. The Meth Act
            does not specify the frequency of the periodic update.

            EPA has not addressed this requirement. OEM staff stated that they have
            developed a plan to update the guidelines, but some delay can be expected due to
            resource constraints.

            During our review, we identified some issues that should be evaluated for
            inclusion in updates to the voluntary guidelines:

               •	 Disposal of meth lab waste as HHW—The Resource Conservation and
                  Recovery Act allows disposal of HHW in municipal landfills. Some states
                  explicitly prevent meth lab waste from being disposed as HHW, while
                  other states do not. The guidelines do not define EPA’s position on the
                  disposal of meth lab waste as HHW. Updated guidelines should define
                  EPA’s position on disposal of meth lab waste as HHW.

               •	 Funding meth lab remediation through the Local Governments
                  Reimbursement Program—OEM manages the Local Governments
                  Reimbursement Program, which can provide remediation reimbursement
                  up to $25,000 per incident. The updated guidelines could emphasize the
                  availability of these funds for meth lab remediation, which may help in the
                  cleanup of these sites.




11-P-0708                                                                                      8
               •	 Information on former meth lab sites—Information on the location of
                  former meth lab sites could provide helpful risk information to prospective
                  occupants. DEA and some state programs identify these sites on their
                  websites. The updated guidelines could identify these websites.

               •	 Environmental justice and children’s health—Children may be the
                  population at greatest risk when improperly cleaned up meth lab sites are
                  reinhabited. Children’s health and environmental justice have been
                  defined as priorities by the EPA Administrator and, accordingly, should be
                  explicitly addressed in the updated guidelines.

            Establishment of a Research Program

            The Meth Act requires EPA to establish a program of research to support the
            development and revision of the voluntary guidelines. The Meth Act specifies,

                   Such research shall –
                      1.	 identify methamphetamine-laboratory-related chemicals
                          of concern;
                      2.	 assess the types and levels of exposure to chemicals of
                          concern identified, including routine and accidental
                          exposures, that may present a significant risk of adverse
                          biological effects, and the research necessary to better
                          address biological effects and to minimize adverse human
                          exposures;
                      3.	 evaluate the performance of various meth lab cleanup and
                          remediation techniques; and
                      4.	 support other research priorities identified by the
                          Administrator in consultation with states and other
                          interested parties.

            ORD drafted a research plan in March 2009 to address the issues identified in the
            Meth Act. However, full implementation of the draft plan has been delayed due to
            resource limitations. ORD has accomplished the following:

               •	 Completed the draft Methamphetamine Remediation Research Plan in
                  March 2009. This plan was subjected to external peer review, resulting in
                  a draft Peer Review Report dated December 3, 2009.
               •	 Finalized a memorandum of understanding with NIST in October 2009.
                  The purpose of this memorandum of understanding is to delineate the
                  roles and responsibilities of the ORD and NIST meth research programs.
               •	 ORD staff stated they conducted a thorough search of scientific guidance
                  and literature to assist in focusing limited resources on a high priority
                  research project.
               •	 Initiated research investigating the effectiveness of hydrogen peroxide as a
                  remediation agent. To accomplish this research, ORD has completed the


11-P-0708                                                                                    9
                   necessary logistics—obtaining permission from the state of North Carolina
                   for a meth lab test site, and from DEA to purchase meth from commercial
                   vendors.

            Technology Transfer Conference

            The Meth Act directs EPA to convene a technology transfer conference not later
            than 90 days after the date of enactment of the Meth Act, and at least every
            3 years thereafter. This conference should include appropriate state agencies as
            well as individuals or organizations involved in research and other activities
            directly related to the environmental or biological impacts of former meth labs.
            The Meth Act further specifies that the conference should be a forum for EPA to
            provide information on the voluntary guidelines and the research program, and for
            nonfederal participants to provide information on their problems, needs, and
            experiences with the guidelines. EPA is required to provide a summary report of
            the proceedings to Congress not more than 3 months after each conference.

            EPA has not completed this requirement. OEM staff stated they satisfied the
            requirement for the initial conference by participating in the 2008 National
            Alliance for Model State Drug Laws conference. EPA did not transmit a report to
            Congress summarizing the proceedings. However, EPA staff stated that in 2010
            they provided Congressional staff with links to the conference proceedings. OEM
            staff stated that they have developed plans to convene another national
            meeting/conference. EPA stated that it now has plans to convene a national
            meeting in lieu of a technology transfer conference. Staff also stated that planning
            for the conference was limited by resource constraints. The first of the triennial
            conferences should have been scheduled for spring 2011 and is therefore overdue.

            Residual Effects Study

            The Meth Act requires EPA to enter into an arrangement with the National
            Academy of Sciences for a study of the status and quality of research on the
            residual effects of meth labs. This arrangement is required not more than
            6 months after enactment of the Meth Act. The purpose of the study is to identify
            research gaps, recommend an agenda for the research program, and focus on the
            need for research on the impacts on (1) residents, with particular emphasis on
            biological impacts on children, and (2) first responders. The Meth Act further
            requires EPA to transmit to Congress a report on how EPA will use the results of
            the study to carry out all meth-related activities. This report is required not later
            than 3 months after completion of the study.

            EPA has completed the intent of this requirement, but did not report to Congress.
            Without a funding appropriation for an arrangement with the National Academy
            of Sciences, ORD addressed the residual effects study through a literature review.
            ORD completed the review in 2010, but did not transmit a report to Congress.
            ORD staff stated they provided a copy of its draft research plan to Congress in



11-P-0708                                                                                      10
            2009, and in 2010 ORD staff updated congressional staff on the status of the
            residual effect study.

Resource Constraints Limiting EPA’s Efforts to Meet Meth Act
Requirements
            The 2007 Meth Act authorized a total of $3.5 million for EPA in fiscal years 2007
            and 2008. However, this funding was never appropriated by Congress. Without
            adequate funding, all Meth Act goals will not be met or will be delayed. EPA has
            not informed Congress as to which requirements it will not be able to meet.

            OEM and ORD managers have indicated their commitment to complete EPA’s
            Meth Act requirements. EPA estimates that it has directed more than $1.1 million
            from other funding sources to implement the requirements. OEM spent
            approximately $339,000 from the Superfund budget from 2008 through 2010 to
            complete the voluntary guidelines, participate in interagency workgroups, gather
            input from state and local government officials, and provide first-responder
            training. ORD spent an additional $816,000 from the Science and Technology
            appropriation from 2008 through January 2011 to support the development of the
            guidelines and conduct research activities required by the Meth Act. However,
            despite these efforts by OEM and ORD, without its authorized funding, EPA will
            not complete or will delay completion of the Meth Act requirements so that it can
            address funded Agency priorities.

            Although EPA’s guidelines describe a remediation process and best practices for
            cleanup, states have identified the need for health-based cleanup guidance. ORD
            expects to continue its research activities on the use of hydrogen peroxide in meth
            lab remediation in the near future. However, additional research that would
            support the development of voluntary health-based cleanup guidance has been
            delayed.

EPA Has No Controls to Identify and Track Legislative Requirements
            EPA staff were unaware that the legislative requirements of the Meth Act that we
            identified as overdue were, in fact, overdue. We discussed this issue with staff
            from the EPA Office of Congressional and Intergovernmental Relations and the
            Office of Policy, who confirmed that they have no internal controls to identify or
            track the status of EPA’s legislative requirements. Further, they stated that
            tracking and completing the requirements were the responsibility of the EPA
            program offices. EPA staff also stated that Congress has never asked EPA for
            these reports.

            We discussed the identification and tracking of EPA legislative requirements with
            staff from the relevant program offices—OSWER and ORD. Neither of these
            program offices have controls in place to identify and track all legislative



11-P-0708                                                                                    11
            requirements, although an ORD division director stated that ORD tracks
            requirements that have appropriated funds.

Conclusions
            EPA will continue to be delayed or prevented from fulfilling all of its obligations
            under the 2007 Meth Act due to a lack of congressional appropriation of
            authorized funds, limited EPA funding, and a lack of internal controls for tracking
            legislative requirements. EPA has not communicated with Congress to explain the
            effects the lack of funding has had on its ability to complete the Meth Act’s
            requirements. Although EPA published voluntary remediation guidelines and
            initiated a research program, it has not completed other Meth Act requirements.
            Further research is needed if EPA is to update its guidelines with health-based
            criteria that can help states and local governments identify the point at which
            former meth labs are safe to inhabit again. To make informed decisions, Congress
            needs to be aware of the challenges created by its lack of funding, and of the
            impacts to other program activities caused by redirection of funds to meet Meth
            Act requirements.

Recommendations
            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response and the Assistant Administrator for Research and Development:

                   1.	 Establish a plan to implement the Meth Act requirements and inform
                       Congress which requirements will not be met or will be delayed.

                   2.	 Address the following issues in the next update to the voluntary
                       remediation guidelines:

                           a.	 Clarification of whether meth lab waste can legally be disposed
                               of as HHW.
                           b.	 Availability of EPA Local Governments Reimbursement
                               funding to pay for meth lab cleanup.
                           c.	 Information on websites containing lists of former meth lab
                               sites.
                           d.	 Consideration of children’s health and environmental justice.

            We recommend that the Associate Administrator for Congressional and 

            Intergovernmental Relations and the Associate Administrator for Policy: 


                   3.	 Develop internal controls to ensure that legislative requirements are
                       identified and tracked, and that their status is reported to Congress as
                       required.




11-P-0708                                                                                      12
Agency Response and OIG Evaluation
            OSWER provided a coordinated Agency response. We reviewed the Agency’s
            comments and made changes to the report as appropriate. Appendix A provides
            the full text of OSWER’s response and the OIG’s comments on that response.

            The Agency agreed with all recommendations. EPA suggested a change to
            recommendation 2, which was accepted. In its 90-day response to this report,
            EPA should include a detailed corrective action plan with estimated milestone
            dates for each recommendation. The recommendations are listed as unresolved
            because planned completion dates were not provided.




11-P-0708                                                                                   13
                                     Status of Recommendations and
                                       Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed To
    No.      No.                          Subject                          Status1         Action Official             Date      Amount      Amount

     1       12     Establish a plan to implement the Meth Act               U        Assistant Administrator
                    requirements and inform Congress which                             for Solid Waste and
                    requirements will not be met or will be delayed.                 Emergency Response and
                                                                                      Assistant Administrator
                                                                                        for Research and
                                                                                           Development

     2       12     Address the following issues in the next update to       U        Assistant Administrator
                    the voluntary remediation guidelines:                              for Solid Waste and
                        a. Clarification of whether meth lab waste can               Emergency Response and
                           legally be disposed of as HHW.                             Assistant Administrator
                                                                                        for Research and
                        b. Availability of EPA Local Governments                           Development
                           Reimbursement funding to pay for meth lab
                           cleanup.
                        c. Information on websites containing lists of
                            former meth lab sites.
                        d. Consideration of children’s health and
                           environmental justice.

     3       12     Develop internal controls to ensure that legislative     U        Associate Administrator for
                    requirements are identified and tracked, and that                     Congressional and
                    their status is reported to Congress as required.                Intergovernmental Relations
                                                                                     and Associate Administrator
                                                                                              for Policy




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




     11-P-0708                                                                                                                                          14
                                                                                  Appendix A

             Agency Response to Draft Report and
                       OIG Comment
                              (Received September 2, 2011)



     MEMORANDUM

     SUBJECT:	 Environmental Protection Agency’s (EPA) Response to OIG’s Draft Report:
               “EPA Progress on the 2007 Methamphetamine Remediation Research Act,”
               Project No. OPE-FY11-0007

     FROM: 	       Mathy Stanislaus
                   Assistant Administrator
                   Office of Solid Waste and Emergency Response

                   Kevin Teichman                

                   Deputy Assistant Administrator for Science 

                   Office of Research and Development 


                   Arvin Ganesan
                   Associate Administrator for Congressional and Intergovernmental Relations

     TO:	          Wade T. Najjum
                   Assistant Inspector General for Program Evaluation

     We appreciate the opportunity to comment on the Office of Inspector General (OIG) draft
     evaluation report: “EPA Progress on the 2007 Methamphetamine Remediation Research
     Act,” Project No. OPE-FY11-0007, dated July 25, 2011.

     As you know, EPA has been involved, through many offices, in the federal response to
     former meth labs, as well as implementation of the requirements of the Methamphetamine
     Remediation Research Act of 2007 (Meth Act). In addition to the voluntary remediation
     guidelines developed by EPA’s Office of Emergency Management (OEM), the Agency’s
     Local Governmental Reimbursement Program has reimbursed a number of local
     governments for the cleanup of former meth labs. We have also trained more than 1200 first
     responders on Awareness and Operations at former meth labs. Other activities include EPA’s
     submission of the 2011 report to Congress entitled “RCRA Hazardous Waste Identification
     of Methamphetamine Production Process By-products” which identified by-products of the
     meth production process and whether they were considered hazardous waste. Additionally, in
     consultation with leading researchers in the meth lab remediation arena, the Office of
     Research and Development (ORD) developed a research strategy to address Meth Act



11-P-0708                                                                                  15
     requirements. While activities required under the 2007 Meth Act remain unfunded, EPA has
     been providing ongoing assistance to state and local governments in their response to the
     cleanup of former meth labs.

     Our response to the draft OIG recommendations is below. Our specific comments are
     attached, and address concerns that require attention and consideration.

     Recommendations

     We recommend that the Assistant Administrator for Solid Waste and Emergency Response
     and the Assistant Administrator for Research and Development:

     1.	 Establish a plan to implement the Meth Act requirements and inform Congress which
         requirements will not be met or will be delayed.

     While the Agency did not receive Congressional appropriations to implement the Act’s
     requirements, we are in the process of establishing a final plan to implement the requirements
     of the Meth Act. Working with the Office of Congressional and Intergovernmental Relations
     (OCIR), we will continue to keep interested Congressional staff informed of our progress,
     including the anticipated dates that requirements will be addressed.

      OIG Response: EPA agreed with this recommendation. The Agency stated that it is in the
      process of establishing a final plan to implement the Meth Act requirements, and will keep
      interested congressional staff informed of progress. The intent of our recommendation is to
      inform the appropriate congressional staff, which could be different than those interested.
      This recommendation is listed as unresolved because planned completion dates were not
      provided. In its 90-day response to this report, EPA should include a detailed corrective
      action plan with estimated milestone dates to implement the requirements of the Meth Act.

     2.	 Address the following issues in the next update to the voluntary remediation guidelines:

        a. Definition of meth lab waste as Household Hazardous Waste (HHW).
        b. Availability of EPA Local Governments Reimbursement funding to pay for meth lab
           cleanup.
        c. Information on websites containing lists of former meth lab sites.
        d. Consideration of children’s health and environmental justice.

     OEM will take into consideration a. – d. in this recommendation when undertaking an update
     to the guidelines. OEM will coordinate with ORCR in the definition of HHW.

      OIG Response: EPA agreed with this recommendation. This recommendation is listed as
      unresolved because planned completion dates were not provided. In its 90-day response to
      this report, EPA should include a detailed corrective action plan with estimated milestone
      dates for the next update of the guidelines.




11-P-0708                                                                                      16
     We recommend that the Associate Administrator for Congressional and Intergovernmental
     Relations and the Associate Administrator for Policy:

     3.	 Develop internal controls to ensure that legislative requirements are identified and
         tracked, and that their status is reported to Congress as required.

     EPA is in the process of developing a system to track Reports to Congress to ensure that
     legislative requirements are met.

      OIG Response: EPA agreed with this recommendation. The Agency stated that it is in the
      process of developing a system to track Reports to Congress and ensure legislative
      requirements are met. This recommendation is listed as unresolved because planned
      completion dates were not provided. In its 90-day response to this report, EPA should
      include a detailed corrective action plan with estimated milestone dates for the
      implementation of the tracking system.

     If you have any questions, please have your staff contact Johnsie Webster at (202) 566-1912.

     Attachment

     cc: Arthur Elkins
         Carolyn Copper
         Steve Hanna
         Lek Kadeli
         Fred Hauchman
         Amy Battaglia
         Deborah Heckman
         Norman Adkins
         Larry Stanton
         Dana Tulis
         Gilberto Irizarry
         Lisa Boynton
         Jim Michaels
         Carolyn Levine




11-P-0708                                                                                       17
Attachment

Comments

   1.	 On page 2, your draft report states:

   “If former meth labs have not been decontaminated properly, chronic exposure to residual,
   dangerous, and hidden chemicals can cause serious health problems, such as cancer; damage to
   the brain, liver, and kidneys; birth defects; and reproductive problems such as miscarriages.”

Please cite the supporting studies used to make these statements or revise the statement to focus on
supportable adverse health effects.

OIG Response: Health effects are described in the Washington State Department of Health Meth
Lab fact sheet, currently available at http://www.doh.wa.gov/ehp/cdl/methlab.htm.

   2.	 On page 2, your draft report states:

   “After a meth lab has been seized and processed for evidence, law enforcement is responsible for
   the removal and disposal of the hazardous waste.”

Please add the word “bulk” before “hazardous.”

OIG Response: “Bulk” added as suggested.

   3.	 On page 2 and 3, your draft report states: “In most states, the Drug Enforcement
       Administration (DEA) has funded the removal of chemicals, drugs, and the apparatus used to
       manufacture the drugs, but DEA does not remediate residual contamination at these sites.”

Please replace the word “remediate” with the word “fund.” Add the word “remediation” after the
word “contamination.”

OIG Response: No change - wording is consistent with DEA statements in its 2005 Guidelines for
Law Enforcement for the Cleanup of Clandestine Drug Laboratories.

   4.	 On page 4, your draft report states:

   “The purpose of the Meth Act is ‘to establish a Federal research program to support the
   development of voluntary guidelines to help states address the residual consequences of former
   methamphetamine laboratories’.”

The text quoted in the draft report is not taken directly from the Methamphetamine Act. Please use
language directly from the Act or remove the quotation marks.




 11-P-0708                                                                                        18
OIG Response: The statement is a direct quote from page 2 of the Methamphetamine Research Act
of 2007, Report 110-8, identified as a report to accompany H.R. 365, February 7, 2007. A direct link
to this document may be found at EPA’s Voluntary Guidelines for Methamphetamine Laboratory
Cleanup website, at http://www.epa.gov/oem/methlab.htm.

   5.	 On page 4, your draft report states:

       “The Meth Act also requires EPA to develop a research program and submit a report to
       Congress on the research results, convene regular conferences for sharing information and
       submit a report to Congress on feedback obtained during the conferences, and periodically
       update the guidelines.”
The research program section (Section 4) does not direct EPA to submit any reports, so please strike
the phrase “submit a report to Congress on the research results.”

OIG Response: Section 6 of the Act (public law 110-143, December 21, 2007) specifies that "the
Administrator shall transmit to Congress a report on how the Administrator will use the results of the
study to carry out the activities described in sections 3 and 4." The sentence has been modified to
clarify the report requirement.

   6.	 General concerning Chapter 2, section entitled “EPA Has Completed Some Requirements of
       the Meth Act”, information regarding the “Establishment of a Research Program.”

Please add the following accomplishment: EPA conducted a thorough search of scientific guidance
and literature to assist in focusing limited resources on a high priority research project.

OIG Response: New bullet added on page 9.

   7.	 On page 7, your draft report states:

       “EPA did develop a multiyear research plan, but has delayed its implementation.”

Insert the word “full” between “its” and “implementation.”

OIG Response: “Full” added as suggested, and also added to table on page 7 under Current Status
column, Establish a meth lab research program.

   8.	 On page 7, your draft report states:

   “EPA also has no plans to convene the technology transfer conference within the required
   timeframe.”

EPA has convened one technology transfer conference and this is mentioned later in your report on
page 8. Revise this sentence to note that one conference has been held. Please make the statements
related to conferences should be consistent throughout the document. Also add that EPA does have
plans to convene a national meeting in lieu of a technology transfer conference.




 11-P-0708                                                                                       19
OIG Response: Sentence revised to read “EPA convened an initial technology transfer conference,
but has no plans to convene the next technology transfer conference within the required timeframe.”
Sentence added on page 10 as requested, “EPA stated that it now has plans to convene a national
meeting in lieu of a technology transfer conference.”

   9. On page 8, your report states:

   “EPA has not yet developed plans to update the guidelines due to resource constraints.”

EPA has developed a plan to update the guidelines. However, some delay in updating the guidelines
can be expected due to resource constraints.

OIG Response: At the start of our review, EPA did not yet have any plans for update of the
guidelines, but later indicated that they had started discussions to develop the plan. We have updated
the text to reflect this most recent plan development by EPA. The sentence has been revised to
”OEM staff stated that they have developed a plan to update the guidelines, but some delay can be
expected due to resource constraints.”

   10. On page 8, your report states:

   “First conference was held. No plans to convene the next conference due to resource
constraints.”

As EPA stated in the investigation stage of the process, while resource constraints could delay a
conference, we have plans developed to convene another national meeting/conference. Please add
language to this effect in the report. This information should be consistent throughout the report.

OIG Response: At the start of our review, EPA did not yet have any plans for convening the next
conference, but later indicated that they had started discussions for future conferences. We have
updated the text to reflect this most recent plan development by EPA. The sentence has been revised
to “OEM staff stated that they have developed plans to convene another national
meeting/conference.”

   11. On page 9, your draft report states:

   “However, the implementation of the draft plan has been delayed due to resource limitations.”

Please replace the word “the” with the word “full.”

OIG Response: Sentence modified as suggested.

   12. On page 9, your draft report states:

   “Completed the draft Methamphetamine Remediation Research Plan in March 2009. This plan
   was subjected to external peer review.”




 11-P-0708                                                                                        20
Please insert the words “resulting in a Peer Review Report dated December 3, 2009” at the end of
the sentence.

OIG Response: Sentence modified as suggested.

   13. On page 9, your draft report states:

   “Finalized a memorandum of understanding with NIST. The purpose of this memorandum of
   understanding is to delineate the roles and responsibilities of the ORD and NIST meth research
   programs.”

Please insert the words “in October 2009” at the end of the first sentence.

OIG Response: Sentence modified as suggested.

   14. On page 10, your draft report states:

   “EPA has completed the intent of this requirement, but did not report to Congress. Without a
   funding appropriation for an arrangement with the National Academy of Sciences, ORD
   addressed the residual effects study through a literature review. ORD completed the review in
   2010, but did not transmit a report to Congress. EPA staff stated that in 2010 they updated
   Congressional staff on the status of the residual effect study and provided a copy of ORD's draft
   research plan.”

EPA submitted a research plan to Congress in March 2009. We have attached the OCIR transmittal
and Congressional staff acknowledgement of receipt to demonstrate that this occurred. Please
change the language in your draft report to reflect this information.

OIG Response: Last sentence on page 10 modified to “ORD staff stated they provided a copy of its
draft research plan to Congress in 2009, and in 2010 ORD staff updated congressional staff on the
status of the residual effect study.”

   15. On page 12, recommendation 2.a. you state: ”definition of meth lab waste as HHW.”

As written, the recommendation appears to instruct EPA to define meth waste as a HHW. As we
informed the IG during their investigation, EPA’s household hazardous waste exemption covers
waste from “households.” We do not interpret the exemption to cover waste from meth labs. We
believe the recommendation would be better expressed with the following wording: “Clarify whether
meth lab waste can legally be disposed of as household hazardous waste.” This language is
consistent with the language found in the “At A Glance” portion of the draft report.

OIG Response: Sentence changed to “Clarification of whether meth lab waste can legally be
disposed of as HHW.”




 11-P-0708                                                                                       21
                                                                              Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Assistant Administrator for Research and Development
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Policy
Deputy Assistant Administrator for Solid Waste and Emergency Response
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for External Affairs and Environmental Education
Director, Office of Emergency Management, Office of Solid Waste and Emergency Response
Director, Office of Resource Conservation and Recovery, Office of Solid Waste and Emergency
      Response
Audit Followup Coordinator, Office of Solid Waste and Emergency Response
Audit Followup Coordinator, Office of Research and Development




11-P-0708                                                                                22
